<html>
<title> - [H.A.S.C. No. 115-85] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2019 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-85]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                     A REVIEW AND ASSESSMENT OF THE

                    FISCAL YEAR 2019 BUDGET REQUEST

       FOR DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 14, 2018

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                  
29-489                  WASHINGTON : 2019      


                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
DOUG LAMBORN, Colorado               BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                STEPHANIE N. MURPHY, Florida
JODY B. HICE, Georgia
                Peter Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     3
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Hahn, RADM David J., USN, Chief of Naval Research................     9
Miller, Mary J., Performing the Duties of Assistant Secretary of 
  Defense for Research and Engineering, Office of the Under 
  Secretary of Defense for Research and Engineering..............     5
Russell, Dr. Thomas P., Deputy Assistant Secretary of the Army 
  for Research and Technology....................................     8
Stanley, Jeffrey H., Deputy Assistant Secretary of the Air Force 
  for Science, Technology and Engineering........................    10
Walker, Dr. Steven H., Director, Defense Advanced Research 
  Projects Agency................................................     6

                                APPENDIX

Prepared Statements:

    Hahn, RADM David J...........................................    62
    Miller, Mary J...............................................    36
    Russell, Dr. Thomas P........................................    52
    Stanley, Jeffrey H...........................................    67
    Stefanik, Hon. Elise M.......................................    33
    Walker, Dr. Steven H.........................................    44

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Lamborn..................................................    89

Questions Submitted by Members Post Hearing:

    Mr. Hice.....................................................    94
    Mr. Lamborn..................................................    94
    Mr. Larsen...................................................    93
    Ms. Speier...................................................    93
    
  A REVIEW AND ASSESSMENT OF THE FISCAL YEAR 2019 BUDGET REQUEST FOR 
         DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                         Washington, DC, Wednesday, March 14, 2018.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order.
    Welcome to this important hearing entitled ``A Review and 
Assessment of the Fiscal Year 2019 Budget Request for the 
Department of Defense Science and Technology Programs.''
    Defense Secretary Jim Mattis recently testified that, 
quote: ``Our competitive edge has eroded in every domain of 
warfare: air, land, sea, space, and cyber.'' End quote. And I 
couldn't agree more. Our committee, and the Emerging Threats 
and Capabilities Subcommittee in particular, has spent a 
considerable amount of time reviewing and understanding 
adversarial threats, most notably from China and Russia, while 
also keeping an eye on emerging technology such as quantum 
science, artificial intelligence [AI], nanotechnology, 
synthetic biology, autonomy, and robotics.
    We have seen troubling adversarial advances in warfighting 
systems like hypersonics and directed energy, and adversarial 
advances in enabling technologies, to include high-performance 
computing and artificial intelligence. We have also learned 
that many of our adversaries continue to increase their 
research and development [R&D] budgets, and implement national-
level strategic plans.
    Russia has increased their basic research budget by nearly 
25 percent, and the Chinese have national-level plans for 
science and technology, as well as an approach to lead the 
world in AI by 2030.
    All of these signs point to top-down government-driven 
agendas that provide resources and road maps for strategic 
collaboration between industry, academia, and civil society. 
These efforts could propel Russia and China to continue to leap 
ahead in many of the technology sectors we will talk about 
today.
    But adversarial dominance is not a foregone conclusion. 
What we learn today and in future hearings must be translated 
into action--to inform and reform the Department of Defense 
[DOD] in support of national-level efforts in order that the 
United States remains home to the world's leading experts, 
researchers, and technological breakthroughs.
    Artificial intelligence is one sweeping area that I am 
particularly interested in from a national security 
perspective. Next week, I plan to introduce standalone 
legislation that will start the discussion on how we should 
better organize our government to understand and leverage AI.
    I look forward to working with my colleagues on the 
committee, and also with the Department of Defense as we craft 
solutions for this year's NDAA [National Defense Authorization 
Act]. Given these challenges, I am very pleased to see a total 
of $13.7 billion for science and technology [S&T] in the 
Department of Defense budget request, an approximate $500 
million increase, and 2.3 percent of the total defense budget.
    But despite this increase, I remain concerned that our S&T 
investments represent a small percentage of our overall defense 
budget. To truly increase lethality and provide a superior 
technological edge for our warfighters, we should ask ourselves 
if 2.3 percent of the total defense budget is the correct 
balance. A properly resourced science and technology enterprise 
in the long run reduces risk, and when properly executed, can 
generate efficiencies within the Department, something we need 
to keep in mind amidst debates on sequestration and continuing 
resolutions.
    Now more than ever our S&T enterprise and investments play 
a strategic role and are central to our national and economic 
security. This hearing also marks our first open S&T event 
since the National Defense Authorization Act directed the 
reestablishment of the position of the Under Secretary of 
Defense for Research and Engineering [R&E] within the 
Department.
    And as I have said in previous statements, I firmly believe 
that the Under Secretary for R&E needs to be the prime mover to 
drive change and foster innovation within the Department. A 
primary mission of this office should be to provide distinct 
direction and leadership to energize the defense industrial 
base, the military services, combatant commanders, and the 
Department of Defense labs. It must also guide newer 
initiatives, such as the Strategic Capabilities Office, the 
Defense Innovation Unit Experimental or DIUx, and even the 
Algorithmic Warfare Working Group, and the Defense Digital 
Service.
    And while many of these new initiatives have created 
tremendous momentum and energized the conversation about 
changing ``the culture'' of the Department of Defense, much 
more needs to be done to make these more than one-off quick 
gains. If properly empowered and resourced, I also believe that 
the Under Secretary for R&E will be in a unique position to 
drive a national-level dialogue for S&T policy that will, in 
addition to helping maintain a battlefield advantage, energize 
our domestic industrial and innovation bases, and provide 
technology jobs and opportunities across many of the sectors we 
will talk about today.
    So we have significant expectations, clearly, of Dr. Mike 
Griffin and his office, but we do so while also offering our 
support and confidence because the threats we face from our 
adversaries demand that we energize and organize our government 
to ensure that policy indeed keeps pace with technology.
    So to help us with this important topic today, we welcome 
five distinguished witnesses, starting with my left: Ms. Mary 
Miller, Performing the Duties of the Assistant Secretary of 
Defense for Research and Engineering [USD (R&E)]; Dr. Steven 
Walker, Director of the Defense Advanced Research Projects 
Agency, DARPA; Dr. Tom Russell, Deputy Assistant Secretary of 
the Army for Research and Technology; Rear Admiral David Hahn, 
Chief of Naval Research; and Mr. Jeff Stanley, Deputy Assistant 
Secretary of the Air Force for Science, Technology, and 
Engineering.
    Welcome to all of our witnesses and we look forward to your 
testimony. I want to welcome my friend and ranking member, Jim 
Langevin, whose timing is indeed perfect.
    And when he gets situated, I would like to recognize him 
for any opening comments he would like to make.
    Thank you, Jim, I know today has been a busy day for all of 
us.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 33.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Madam Chair. It worked out well, I 
actually literally just flew in a little while ago because of 
the northeaster we received yesterday. I got snowed out and 
wasn't able to get in until this afternoon.
    So, anyway, welcome to our witnesses. Thank you all for 
being here. And, regrettably, I understand Secretary Griffin 
was unable to join us today, although I recognize that he was 
just recently confirmed, and I understand his vision for 
science and technology and innovation, as the first Under 
Secretary of Research and Engineering, is paramount for the 
subcommittee.
    And I certainly look forward to engaging him in the very 
near future. And I appreciate, though, that Ms. Miller is here, 
that you are here representing the Office of the Secretary of 
Defense, R&E enterprise, and it is good to see you again.
    Today we begin consideration, fiscal year [FY] 2019 budget 
request for S&T across the Department of Defense, the total is 
$13.7 billion up from $13.2 billion requested in FY 2018. The 
amount requested for advanced development and prototyping is 
$20.8 billion, $3 billion more than requested in FY 2018, for a 
total of $34.5 billion requested for R&E activities.
    This budget request comes on the heels of the recently 
released National Defense Strategy [NDS] that highlights 
specific technological advancements that the U.S. needs to 
leverage to maintain its warfighting edge. Many of these are in 
areas this subcommittee supported over the years, including 
artificial intelligence, directed energy, hypersonics, 3-D 
printing, and autonomous systems.
    The NDS also highlights long-term strategic competition 
with China and Russia and the need for an unparalleled national 
security innovation base. It is no secret that China is 
employing measures that encroach upon, poach from, and steal 
from us to further their objectives to be an R&E powerhouse and 
degrade our warfighting edge.
    This is utterly alarming and greatly affects our national 
security. Unfortunately, China is not the only nation 
conducting such activities. They are, however, one of the few 
state actors that has coupled such tactics with considerable 
money and other resources behind a national strategy that 
involves a whole-of-government effort and leverages society to 
promote indigenous innovation. If the U.S. is to remain a 
global leader in technology, then we just can't play defense, 
we must also play offense.
    Our efforts to deter and counter China and other actors 
that threaten our ability to maintain our technological edge 
are absolutely critical, as are investments in science and 
research, prototyping, and other development efforts to advance 
warfighting capabilities and to promote deterrence. No less 
important are investments in STEAM [science, technology, 
engineering, the arts, and mathematics] education and in 
programs that develop junior talent into future tech leaders. 
And the implementation of strategic policies that promote a 
sound economic and political environment on U.S. soil where 
global collaboration, discovery, innovation, public 
institutions, and industry can thrive.
    We must also balance participation in the global S&T and 
innovation environment with protection of national security 
interests. Clearly, this cannot be done through DOD alone, 
however. DOD has a significant role to play as a customer and 
driver of S&T innovation. DOD S&T ecosystem includes science 
technology and reinvention laboratories that house some of our 
Nation's greatest assets and people. It also includes DARPA, 
which is invested in some of the pie-in-the-sky ideas that came 
to fruition and change how we fight and how we live.
    They have absolutely lived up to what our expectations are 
to invest in those high-risk, high-payoff initiatives, and 
avoid technological surprise wherever possible. Over the course 
of many years, Congress has worked tirelessly to provide 
authorities and legislation that enable these institutions to 
be utilized to the fullest potential by the Department. Tools 
such as the Rapid Innovation Fund and Small Business Innovation 
Research [SBIR] program have been provided to DOD to leverage 
commercial innovation and have proven beneficial to that end.
    DIUx and other entities have stood up to enable the 
Department to make use of commercial technology and tech 
advancements. However, I believe DOD can make better use of 
these tools as well. DOD also administers the research and 
education program for historically black colleges and 
universities and national defense education programs, which I 
am pleased to say, received funding increases this year, 
although I believe those increases should be bigger. These 
programs enhance DOD's S&T efforts and produce top talent for 
the future workforce.
    The NDS framework and the recent reorganization by DOD by 
Congress to separate program acquisition and sustainment [A&S] 
from research and engineering provide the Department an 
opportunity to rethink how it approaches delivering the most 
advanced capabilities to the warfighter in the near, mid, and 
long term, and to bridge the ``valley of death.''
    In the era of strategic state competition, it is time to 
get creative, and we must outsmart our competitors and our 
adversaries. Today I look forward to hearing about how the NDS 
is shaping DOD's R&D landscape; how the budget request reflects 
an investment being made that serves DOD's interest as both the 
consumer and driver of technology advancements; and how DOD is 
leveraging its ecosystem to the fullest extent so that we may 
remain the global technology leader.
    With that, I want to thank you, Madam Chair, for putting 
this hearing together. And with that, I yield back.
    Ms. Stefanik. Thank you, Jim. We now turn to our witnesses. 
Thank you for being here today. Your written statements were 
submitted for the record, so please summarize your opening 
comments within 5 minutes or less. And I will start with 
Assistant Secretary Miller. You have 5 minutes.

STATEMENT OF MARY J. MILLER, PERFORMING THE DUTIES OF ASSISTANT 
 SECRETARY OF DEFENSE FOR RESEARCH AND ENGINEERING, OFFICE OF 
  THE UNDER SECRETARY OF DEFENSE FOR RESEARCH AND ENGINEERING

    Ms. Miller. Chairwoman Stefanik, Ranking Member Langevin, 
and distinguished members of this subcommittee, thank you for 
this opportunity to discuss the state of the Department's 
science and technology program for fiscal year 2019.
    I am proud to be here today representing the newly 
confirmed Under Secretary of Defense for Research and 
Engineering, Dr. Mike Griffin, and the scientists and engineers 
within the DOD S&T enterprise. We are in an era of constant 
competition. We see nations like China and Russia investing 
heavily in research, trying to close the technology gap with 
the U.S. We see high-end military technology that has diffused 
to many countries that would have been unable to develop it 
themselves, even reaching some nonstate actors.
    In a world with near equal access to technology, speed is 
becoming the discriminator. Not just speed of discovery, but 
speed of delivery. How fast we can develop, adopt, or leverage 
technology to meet the warfighters' needs, and get it into 
their hands will determine our ability to outpace our 
adversaries.
    Under Dr. Griffin's leadership, I look forward to 
instilling within the Department a culture that embraces a more 
agile approach to development and delivery. You have been 
briefed countless times that our adversaries have spent decades 
watching us, how we conduct our warfare, how we fight. They 
have seen our equipment, watched our tactics, techniques, and 
procedures, and determined our concepts of operations. They 
have assessed both our strengths and vulnerabilities and 
strategically invested in capabilities to mitigate our 
advantages and exploit areas of perceived weakness.
    China, for example, has sustained increased defense 
spending since the early 2000s, with the fundamental goal of 
dominating the next generation of military and civilian 
technologies by 2050, making them both a military and an 
economic superpower that prioritize the research and 
development in areas that they believe will help them achieve 
this goal. Areas such as advanced materials and manufacturing, 
hypersonics weapons, advanced computing, artificial 
intelligence, and robotics, to name a few.
    Similarly, Russia has reemerged on the world stage and is 
pursuing force modernization while actively seeking to 
manipulate and dominate the global information environment. 
Meanwhile, North Korea conducts cyber operations to achieve a 
range of offensive effects with little or no warning, and 
continues to flaunt their emerging ballistic missile 
capabilities on a frequent basis. These threats span the air, 
land, sea, space, and cyber domains, which have all experienced 
dramatic capability advancements throughout the world. These 
advancements, coupled with our adversaries' commitment to a 
pace of prototyping, experimentation, and fielding that far 
outstrips our own, present a formidable challenge to our U.S. 
forces operating around the globe.
    In this competitive environment, the Department must pay 
much more attention to future readiness, and ensure our 
conventional overmatch remains over time. We must be willing 
and able to tap into commercial research, recognize its 
military potential, and develop new capabilities and 
operational and organizational constructs to employ them faster 
than our competitors. This would not be possible without our 
DOD scientists and engineers who are doing groundbreaking and 
innovative work. They are embracing these hard challenges our 
military faces every day, seeking to better understand the 
warfighters' problems and working diligently on affordable and 
effective solutions.
    The Department is addressing critical technology and 
capability gaps through a combination of adaptation of existing 
systems, such as efforts conducted through the Strategic 
Capabilities Office, and the development and introduction of 
innovative new technologies through our DOD labs and centers, 
DARPA, and DIUx.
    We recognize that our adversaries present us with a 
challenge of a sophisticated, evolving threat. We are prepared 
to meet that challenge and restore the technical overmatch of 
the United States Armed Forces through focus and innovation.
    Thank you for your strong interest in, and support of, the 
Department's science and technology efforts as we work to 
discover, design, and deliver technology capabilities our 
warfighters will need now and in the future. I appreciate this 
opportunity to testify on this important issue, and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 36.]
    Ms. Stefanik. Thank you. Dr. Walker.

 STATEMENT OF DR. STEVEN H. WALKER, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Walker. Can you hear me? Is it on? Okay.
    Thank you, Chairwoman Stefanik and Ranking Member Langevin, 
for having me here today. For 60 years DARPA has held to the 
singular enduring mission to develop breakthrough technologies 
and capabilities for national security. The genesis of that 
mission and of DARPA itself dates back to a commitment that 
President Eisenhower made that the United States would always 
be the initiator of strategic surprise.
    Working with innovators inside and outside of government, 
DARPA has repeatedly delivered on that mission, transforming 
revolutionary concepts and even seeming impossibilities into 
practical capabilities for the U.S. and allied warfighter. In 
the six decades since DARPA was established the world has 
changed dramatically. These changes include some remarkable and 
even astonishing scientific and technological advances, that if 
wisely and purposefully used, have the potential not only to 
ensure ongoing U.S. military superiority and security, but also 
to catalyze societal and economic advances.
    At the same time, the world is experiencing deeply 
disturbing geopolitical shifts that pose real threats to U.S. 
preeminence and stability. These dueling trends of 
unprecedented opportunity and risk deeply informed DARPA's 
strategic investments decision moving forward.
    My priorities for investment are very much aligned with 
President Trump's National Security Strategy and with Secretary 
Mattis' National Defense Strategy. So my priorities for 
investment in the future are defending the homeland, number 
one, from varied threats, to include developing cyber-
deterrence capabilities, bio-surveillance and bio-protection 
technologies, and the ability to sense and defend against 
weapons of mass terror.
    Number two. Deterring and prevailing against peer 
competitors in Europe and Asia will require new thinking. The 
U.S. can no longer be dominant across all scenarios, but it 
needs to be highly lethal in select ones. Realizing new 
capabilities across all the physical domains will be important, 
and hypersonics will be a key technology there, but we also 
have to look at space and the electromagnetic spectrum domains. 
They are going to be very important for that fight.
    Number three. Effectively prosecuting stabilization efforts 
across the globe requires us to get better at fighting 
differently and in different environments. Capabilities to 
address gray zone conflict, and 3-D [three-dimensional] city-
scale warfare, along with the development of rigorous and 
reliable models to predict adversarial moves will be critical.
    Last, but definitely not least, is number four, 
foundational research in science and technology. This will 
underlie all of DARPA's grounded pursuits, and is what makes 
possible never-before-seen capabilities. We must continue to do 
what I think DARPA does better than anyone, and that is to 
follow where technology can lead us to solve the country's 
toughest challenges.
    One of the foundational technology paths we are on 
currently is to help re-create advanced electronics. DARPA has 
had a key role over the years in advancing the state of the art 
in advanced electronics, especially in semiconductors. Today 
the advanced electronics industry is at an inflection point; 
design and fabrication [of] semiconductors is becoming ever 
more difficult and costly.
    China, which is significantly behind the U.S. now, has 
decided to invest huge sums of government-directed private 
capital to acquire today's onshore semiconductor design and 
manufacturing capabilities. In 2018, DARPA launched the 
electronic resurgence initiative, or ERI, which aims to create 
leap-ahead technology that will develop new materials, new 
circuit design tools, and new system architectures and 
manufacturing capabilities for the U.S. semiconductor industry 
and for our defense sector, to keep us out in front.
    As DARPA looks to its next 60 years, it promises to 
continue to be a bold, risk-tolerant investor in high-impact 
technologies so the Nation can be the first to develop and 
adopt the novel capabilities made possible by such work. With 
the continued support of Congress, and especially this 
committee, as well as the backing of the Pentagon and my S&T 
partners on this panel, we will succeed. Thanks.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 44.]
    Ms. Stefanik. Thank you, Dr. Walker.
    Dr. Russell.

STATEMENT OF DR. THOMAS P. RUSSELL, DEPUTY ASSISTANT SECRETARY 
            OF THE ARMY FOR RESEARCH AND TECHNOLOGY

    Dr. Russell. Chairman Stefanik, Ranking Member Langevin, 
and distinguished members of the subcommittee, I would like to 
thank you for the opportunity to discuss the United States 
Army's program for science and technology for fiscal year 2019. 
This committee plays a vital role in supporting Army S&T, as 
the program seeks to ensure the Army can operate and dominate 
in complex environments.
    These environments pose a variety of challenges 
characterized by adaptive adversaries employing conventional, 
unconventional, and hybrid methods designed to challenge U.S. 
national security. The Army and the joint future operational 
environment will demand a land power dominance with increased 
flexibility, adaptability, and speed of responsiveness.
    As a means to address current capability shortfalls and 
outpace anticipated threats, the Army S&T strategy pursues a 
foundational technology development for future, and leverages 
organic capacity and the capacity of our partners. Army S&T is 
the only portfolio focused in the Army's future investments. It 
makes investments today in fundamental science and technology 
initiatives that will ensure breakthroughs that will yield 
affordable, decisive, and advantages for the future.
    The S&T portfolio is now being rebalanced to meet the 
Army's needs to prepare for and deter possible near-peer 
threats in the mid and far term. Based on the Chief of Staff of 
the Army's guide, the S&T community with our stakeholders, 
reviewed the entire S&T portfolio and concluded that the 
existing portfolio was out of balance, with too great of a 
focus on the near term, and technology developments focused on 
the counterinsurgency fight versus the near-peer threats.
    The Secretary and the Chief of Staff's modernization 
initiatives have further focused the S&T program on the Army's 
top priorities, while maintaining vital long-term research into 
the cutting edges of military relevant science. As a result, 
greater than a billion dollars in S&T funding was redirected 
from near-term efforts and projects to mid-term projects, 
reducing investments in counterinsurgency programs, and 
increasing and accelerating investments in technologies to 
prepare for and deter possible near-peer threats.
    This portfolio rebalance is impacting budget years 2019 
through 2023, which will allow S&T to maintain a balanced 
portfolio investment to guide breakthrough science and research 
and technology innovation. The Army's S&T program fully 
supports the six key modernization priorities: long range 
precision fires, next generation combat vehicles, future 
vertical lift, network/C3I [command, control, communications, 
and intelligence], air and missile defense, and soldier 
lethality.
    S&T also pursues the broader basic and applied research 
that will create new capabilities and prevent technological 
surprise, including, but not limited to eight key technology 
investments: directed energy, artificial intelligence, 
robotics, internet of things, virtual reality, energetic 
materials, and ultra-design materials.
    In addition, state-of-the-art technical facilities are 
essential to ensuring that the Army's S&T enterprise is 
positioned for discovery and maturation of critical 
technologies. An enterprise-wide approach to modernize is 
centered on three primary thrusts: organic technical 
infrastructure, informing construction of our partner 
facilities, and infrastructure collaboration such as the ARL 
[U.S. Army Research Laboratory] open campus business model.
    Our S&T strategy provides the unifying framework for Army 
labs and our industry and academic partners to collaboratively 
mature new technologies. In addition to the 12,000 scientists 
and engineers in our S&T enterprise, the Army labs and the 
research development engineering centers are critical assets 
for the Army. They have delivered key capabilities and support 
of ongoing combat operations and will continue to do so in the 
future.
    I welcome your questions.
    [The prepared statement of Dr. Russell can be found in the 
Appendix on page 52.]
    Ms. Stefanik. Thank you, Dr. Russell. Rear Admiral Hahn.

 STATEMENT OF RADM DAVID J. HAHN, USN, CHIEF OF NAVAL RESEARCH

    Admiral Hahn. Well, good afternoon, and thank you for 
having me. Chairwoman, Ranking Member, and members of the 
subcommittee, thank you for your leadership. So the opening 
comments of the Chair I think provide a pretty good summary of 
the state of affairs. And I think the significant term there is 
the advantage has eroded.
    Those who have gone before you in the seats that you sit 
in, in what used to be called the Naval Affairs Committee, back 
in the year 1946 were going through a similar conversation 
about how do we sustain science and technology and all that we 
had learned throughout the conflict of World War II to ensure 
that we don't repeat those same lessons going forward.
    So that group, the Naval Affairs Committee, stood up the 
Office of Naval Research. And I find the words in the 
legislation that created the Office of Naval Research continues 
to provide us our mission statement today. So I think it is 
important that we think about that for a moment. And I am going 
to read those words to you because that is what gives us our 
charge.
    So in your legislation, it says that my charge is to plan, 
foster, and encourage scientific research, in recognition of 
its paramount importance, as related to the maintenance of 
future naval power, and the preservation of national security. 
So those words echo the theme that as a maritime nation without 
naval power in the present and in the future, we will find 
ourselves at a disadvantage.
    The National Defense Strategy lays out pretty clearly, I 
think, that naval power is going to be very important in this 
great power competition that we find ourselves in yet again. So 
it is my charge to figure out how naval power is going to get 
generated through the elements of science and technology.
    I think it is pretty clear to the members of the committee 
that naval power comes from a combination in balance of 
capacity, capability, and lethality, and science and technology 
are at the heart of every one of those elements of naval power. 
Your United States Navy and Marine Corps is going to play the 
away game every single time.
    So my charge is to make sure that we are the first to field 
to take advantage of the speed of technology that is being 
created each day and to figure out a way to get that into 
programs of record where that capability gets to scale, and do 
it in a more and more lethal and a more and more creative way 
every single day, leveraging all those pieces of the puzzle 
that got put together back again in our experience in World War 
II, and that we leverage going forward to today.
    And you mentioned the three legs of that stool: it is 
academia, it is our industry partners, and it is our government 
workforce that understands how naval warfighting looks, and 
what technologies will apply to the naval warfight in the 
future. And those are the ones we invest in and try to carry 
forward.
    So there is good news here, right? Your leadership and your 
investment in a continued and steady way across the years has 
created a workforce of over 4,000 in my part of the enterprise 
and an analogous number and the same kind of talent across this 
whole team here. And it is our job to keep that team moving in 
the same direction, to leverage each other's investments and 
make the best of it.
    So I am happy to take all the questions. I look forward to 
the dialogue. And I couldn't be more proud than to sit here 
with the members of my team. Thank you.
    [The prepared statement of Admiral Hahn can be found in the 
Appendix on page 62.]
    Ms. Stefanik. Thank you. Mr. Stanley.

STATEMENT OF JEFFREY H. STANLEY, DEPUTY ASSISTANT SECRETARY OF 
     THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING

    Mr. Stanley. Chairwoman Stefanik, Ranking Member Langevin, 
members of the subcommittee and staff, I am pleased to have the 
opportunity to testify on the Air Force's FY 2019 science and 
technology program. Challenges and threats to our national 
security are evolving rapidly. In some cases our near-peer 
competitors are matching or exceeding our Nation in 
capabilities.
    The Air Force has taken action on multiple fronts to change 
the way we leverage science and technology. The Secretary of 
the Air Force recently commissioned a broad-reaching initiative 
to assess our science and technology investment strategy to 
ensure our dominance across air, space, and cyber. Because of a 
variety of factors, the Defense Department is no longer driving 
the industrial base like it did 10 or 20 years ago.
    The Secretary's initiative is looking across industry, 
academia, the national laboratories, and other agencies to see 
where we need to invest in technology, and how we might change 
our processes and business approach. Change is necessary. And 
the Air Force is committed to ensuring our warfighters have the 
best technological advantage we can give them.
    Additionally, we have pivoted in several game-changing 
technology areas to amplify the enduring attributes of air 
power: speed, range, flexibility, and precision. To do this, 
the Air Force is partner with our other services and agencies 
to accelerate the delivery of these technologies. We partner 
with DARPA on our hypersonics developments and initiated two 
follow-on developments. We recently completed a directed energy 
flight plan and are in lockstep with the Navy and the Army to 
demonstrate mature high-energy lasers, high-powered microwaves 
for base defense, aircraft self-protection, and other tactical 
situations.
    Attritable systems like the low-cost attritable aircraft 
technology effort will change future air battles. Teaming with 
commercial industry, the Air Force has leveraged several 
advances in additive and 3-D manufacturing technologies, 
research into limited-life design methodologies, and advanced 
composites to create a family of vehicles like LCAAT [Low Cost 
Attritable Aircraft Technology], which are not only lethal but 
impose costs on our adversaries.
    The space industry landscape continues to change and we are 
aggressively pursuing low-cost access to orbit for payloads and 
microsatellites with programs like EAGLE [ESPA Augmented GEO 
Laboratory Experiment], which will launch next month. It is not 
only the technologies in which the Air Force invests that is 
important, but the pace at which the Air Force innovates and 
responds.
    Global competition has changed the speed at which the world 
around us operates. The Air Force recognizes that it is not the 
country that innovates the best, but rather innovates and 
applies technology the fastest.
    I want to thank the Congress for the recent NDAA language 
regarding prototyping. Prototyping allows us to bridge the gap 
between science and technology and programs of record, and 
deliver capabilities at the speed the warfighter needs.
    Lastly, the global competition for technology and the pace 
of technology development directly translates to the workforce. 
The workforce for science, technology, and engineering 
continues to be our most important resource. This is a national 
issue. And the demand for technical talent is far outpacing 
degree production in the United States.
    We are appreciative of the continued support from Congress 
through flexible personnel authorities. The Air Force continues 
to utilize these authorities to ensure we attract and retain 
the world-class workforce capable of providing these 
revolutionary capabilities for our warfighters.
    In summary, as the Air Force budget request highlights, the 
Air Force senior leadership is committed to science and 
technology and driving innovation across our enterprise. I 
thank the committee for the opportunity to testify today, and 
look forward to your questions.
    [The prepared statement of Mr. Stanley can be found in the 
Appendix on page 67.]
    Ms. Stefanik. Thank you, Mr. Stanley. Before we get to 
questions, I ask unanimous consent that non-subcommittee 
members be allowed to participate in today's briefing after all 
the subcommittee members have had any opportunity to ask 
questions. Is there objection?
    Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Moving along to questions. As I mentioned in my opening 
statement, I plan to introduce standalone legislation next week 
on artificial intelligence, and I understand that the 
Department is currently working an AI strategy being led by the 
Under Secretary for R&E's office.
    So, Ms. Miller, can you provide this committee with an 
update on that initiative and are there ways that we can be 
helpful with this and similar efforts?
    Ms. Miller. Yes, ma'am. So I guess it was last September, 
we decided that, you know, we needed to start pulling together 
what everybody was doing in the world of artificial 
intelligence within the Department of Defense. And we had an 
opening conference and invited people within the Department 
that were working in artificial intelligence and some external 
folks to come in and tell us where they are.
    We were surprised by the breadth that this area has 
expanded because everybody has a way to use artificial 
intelligence, they can envision it. We started doing weekly 
meetings with people within the Department of Defense, over 40 
organizations, over 150 people, typically, any given week, that 
come to talk about what they are doing and how they are 
investing and what their needs are.
    Through this effort we have been trying to shape an 
understanding of what we are spending our resources in and then 
to try to organize those efforts into something that would 
apply to the National Defense Strategy, and where we need to 
go. You have to understand what people are doing and then 
figure out how you need to shape it into the end state of what 
the Department needs.
    So we have got five aspects that we are looking--five goals 
that we are looking at. One is foundational. We need to 
establish a workforce that is--understanding artificial 
intelligence. We need to complete partnerships. We need to 
understand and acquire data so you can actually train your 
intelligent agent. We need to develop standards and the policy 
to be able to use artificial intelligence, in many of the ways 
that the Department would need.
    Our second goal is to be able to attain technical 
superiority. So, the foundations of what AI is. Machine 
learning that we are working on. Data analytics. Robotics. 
Advanced computing that allows us to exercise artificial 
intelligence. And how humans and AI can work together to give 
better capabilities to the warfighter.
    We have looked at how we can apply third goal. How we apply 
AI to business functions. Because the Secretary of Defense has 
made business reform his number three priority in the 
Department. The more we can save through our business reform, 
the more we can spend on achieving and attaining that lethality 
that he desires for the Department of Defense. So we are 
looking at how do you apply AI to not only training and 
education, but finances, the medical field, and what we do in 
contracts, acquisition, and legal activities.
    And looking at affected intelligence analysis. You have 
heard about Project Maven, that is clearly kind of our set of 
how data analytics and artificial intelligence can better 
inform a warfighter. So we have this whole intel [intelligence] 
side of this as well. And ultimately we are trying to get to 
lethality, and that is where we take artificial intelligence 
and applying it to what we are doing in command and control and 
communications and survivability in the breadth of what the 
Department is doing.
    Ms. Stefanik. I want to give the other witnesses an 
opportunity to answer questions as well on this topic. Dr. 
Walker, can you--thank you. Ms. Miller.
    Ms. Miller. Uh-huh.
    Ms. Stefanik. Dr. Walker, can you discuss your AI efforts 
within DARPA, and then understanding we are in an unclassified 
forum, are there any adversarial concerns regarding AI that are 
on your radar that you can share with us today?
    Dr. Walker. Sure. DARPA has been involved in AI since 1960, 
when we wrote the first--our information office director wrote 
the first paper, Man-Computer Symbiosis, so we have had a hand 
in much of the development along the way. We are really focused 
now, much of the commercial sector is applying what we call 
machine learning, which is sort of what we look at as second-
generation AI.
    What we are focused on now is third generation, and that 
is, you know, machine learning requires, you know, large data 
sets, you train--it really should be called machine training. 
You are training a machine over a large data set to recognize 
patterns, et cetera. What we are focused on is third-generation 
AI where you are--and the environment is changing, and so the 
data set is changing, and how does the machine react to that? 
Can it still give you a good answer? And so we have a program 
called Explainable AI that is not just spitting out an answer 
with a probability of correctness, but actually looking at--the 
machine gives you an answer and it tells you how it got to that 
answer, why it came up with that answer. That is one example of 
a program in our third-generation effort.
    Another one is lifelong learning for machines. And so when 
a piece of data changes, the environment changes, how does the 
machine respond to that and how does it get back up on a 
correct answer? In terms of your second part of your question, 
what is the adversary doing, it is well known that adversaries, 
as well as others, are able to manipulate images and videos 
using AI techniques.
    We have a program called Metaphor, which is looking at 
applying AI techniques to understand when images, when videos 
have been tampered with, to provide some truth-telling in that 
scenario.
    Ms. Stefanik. Thank you. Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chairwoman. I certainly look 
forward to cosponsoring the legislation that you are 
introducing. And, you know, I also hope we are--we talk about 
standards that we are also proceeding with well-thought-out 
caution as well that we understand where this is going and 
doesn't get too far ahead of us that we can't control it, as we 
saw recently with the experiment that got shut down with the 
Facebook AI talking to each other, and started talking to each 
other in a language that we didn't know what it was. And they 
had to shut it down. And, again, understanding where this is 
going and proceeding, we both, you know, trying to innovate as 
much as possible, but also make sure it doesn't get away from 
us.
    I am going to switch over to another area, just more 
broadly to all witnesses. How has the National Defense Strategy 
shaped how we think about RDT&E [research, development, test 
and evaluation], and how does the fiscal year 2019 budget 
request reflect a new approach that is different from the third 
offset strategy developed in the DOD under former Secretary of 
Defense Ash Carter. And what is the status of long-range 
research and development planning activities?
    I want to start with Ms. Miller.
    Ms. Miller. So I would tell that you the National Defense 
Strategy, we were part of the development of that and had a lot 
of discussions primarily on where the Department needs to go to 
modernize, and what we needed to think in that area. We have 
started to resonate and it can't be just about systems anymore, 
it needs to be about missions that have to be accomplished. And 
in that context, when you look at what is out there today and 
what needs to be out there in the future to accomplish the 
mission, that is where you start to see science and technology 
play a larger role, and you will start to see investments that 
will be mission oriented to give us options. The Secretary of 
Defense has asked for many options to prosecute these missions, 
and that is what we will bring forward.
    Regarding the long-range research and development program 
plan, we intended all along to do this on a quadrennial basis 
to get people together, to think outside of the box, and to not 
be constrained by how we currently fight. And we do intend to 
do that, it will probably be 3 years from now.
    Mr. Langevin. Thank you.
    Dr. Walker. All right. To follow on to Ms. Miller, for me, 
DARPA is looking at the NDS very closely, especially in the 
area of lethality, and applying--trying to think through how to 
deter and prevail our peer competitors in key areas of the 
globe. One of the areas that we have been working in and will 
continue in a bigger way to work is hypersonics, to enable that 
greater lethality. We are working with our partners to do that, 
and I hope to talk a little more about that, but I want to give 
them a chance.
    Dr. Russell. So the question was also about the long-range 
research development planning. I think you will see in the Army 
S&T program it has really been rebalanced to look towards a 
near-peer threat, and it is really a threat-based approach, 
looking at what are the challenges we face in a land battle. 
And the focus has been driven towards six modernization 
priorities. And the six modernization priorities were designed 
around the ideas of the fundamental functions of warfighting on 
land, which is how do I move, shoot, communicate, and protect.
    And in those areas there are applications or science 
technology programs which are looking at, how do I extend the 
range of artillery, how do I extend the missile range so that 
we can actually have a longer range precision fires, and as 
well as a multidomain, so looking at land-based anti-ship 
missiles. In the defensive area, we are all working areas of 
high-energy lasers and so there is some activities looking at 
mobile SHORAD, which is short range air defense, as well as 
high-energy lasers for tactical vehicle demonstrators for IFPC 
[Indirect Fire Protection Capability] Block 2. I just want to 
end there and give my colleagues a chance to answer as well.
    Admiral Hahn. Gentleman, Mr. Langevin, thank you for the 
question. The National Defense Strategy brings into pretty 
sharp focus for us that we are in a high-end fight, that is 
where we need to focus the efforts of our technology 
implementation onboard our platforms. It also puts a premium on 
speed. So I associate myself with all the remarks that you 
heard about this topic so far, but it is the speed of moving 
that technology at scale to the platform so we get it in the 
hands of the sailors or Marines or the airmen. That is what 
this National Defense Strategy has done. It juiced this whole 
process. We are thinking differently about how we create 
pathways to move this technology through the snake, if you 
will, to get it all the way to the end point.
    So that is what has got us thinking hard every day and 
looking for new opportunities. And I would just close with the 
fact that instead of being a, let's go manage risk, this is 
more of an opportunity-based focus. Let's find the 
opportunities. Let's figure out how we take them, put them into 
evidence, and create that deterrence so that when they look at 
us, they understand, here is what you are up against.
    Thank you.
    Mr. Stanley. Sir, I just amplify what Admiral Hahn just 
talked about is the speed. The NDS is clear on the use of 
experimentation prototyping and advocating for that. And I 
think in the Air Force we have wholly embraced prototyping as a 
way to speed delivery to the warfighter, and I think that is 
going to be key in the future.
    Mr. Langevin. Thank you. And hopefully we will go to a 
second round.
    Ms. Stefanik. Ms. Cheney.
    Ms. Cheney. Thank you, Madam Chairwoman, and thank all the 
witnesses for being here today.
    Dr. Walker, I wanted to ask you, you mentioned in both your 
written testimony, and here today that we are no longer 
dominant, I think you used the phrase, ``across all 
scenarios.'' And I wondered if you can elaborate on that a 
little bit, and talk specifically about, have decisions been 
made that we won't attempt to achieve dominance, that we 
determine that there are certain areas where we simply are 
going to accept a lack of dominance, accept being second to 
someone else.
    Dr. Walker. I think what I meant by that was--really in the 
context of lethality trying to think through new warfighting 
constructs that would allow us to really be more effective, to 
have multiple constructs that we can set up against our 
adversaries so that they are surprised, they are not 
anticipating the next fighter aircraft or the next tank they 
know that we are building. But we are putting systems together 
in new ways that will surprise them in the end. And so trying 
to think through not the next system, as Mary said, not 
developing necessarily the next system, but develop--focus on 
the mission and understand how we can put multiple systems 
together in different ways and surprise the adversary.
    Ms. Cheney. Maybe we will have an opportunity to follow up 
in a closed setting about that particular issue.
    Dr. Walker. Sure.
    Ms. Cheney. And in particular areas where we may now decide 
that we are going to seek dominance.
    And in my second question, I am not quite sure to whom I 
should direct this, but it is about hypersonics and the extent 
to which our obligations under the INF [Intermediate-Range 
Nuclear Forces] Treaty are having an impact as we are looking 
at design, as we are looking at testing.
    To what extent are those imposing restrictions on our 
testing of that system could--I am not sure whose question that 
is.
    Dr. Walker. I think we are certainly conscious of the INF 
Treaty. We are developing hypersonic systems that would be 
compliant with that.
    Ms. Cheney. And so I guess the converse of that would be if 
we were no longer the sole nation guided by, bound by the INF 
Treaty, we would have a wider range of testing, we might be 
interested in doing with respect, and able to do with respect 
to hypersonics?
    Dr. Walker. That is fair.
    Ms. Cheney. Okay. Thank you very much. I yield back.
    Ms. Stefanik. Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chair. Ms. Miller, the budget 
for science and technology represents about 2.3 percent of the 
total budget, is that about right?
    Ms. Miller. Yes.
    Mr. Larsen. Is that enough? You have to answer more quickly 
than that, I only have 5 minutes.
    Ms. Miller. I will tell you that, yes, we could do with 
more. Right now you have an increasing top line, thanks to the 
administration.
    Mr. Larsen. Right.
    Ms. Miller. Looking favorably on the Department of Defense. 
The majority of that money did not go into the science and 
technology, it went into getting us whole for readiness, and 
that was the priority. As we invest in science and technology, 
we need to have the money to take it out of science and 
technology into programs of record, and we have been having 
that conflict of maintaining a ready force and being able to 
pull technology into new systems.
    Mr. Larsen. And I understand Secretary Mattis' concerns on 
readiness and the O&M [operations and maintenance], but it 
seems that we have been ringing the bell a little bit, and 
we've heard about it here today about the investments our 
competitors are making. And yet, I know there is more money in 
some parts of the science and technology budgets, but not in 
all parts. And I think there is a percentage that it may be 
lower than it was in the 2000s when I first came here. I have 
got to double check that number, it is a long time ago, and my 
memory is getting bad, but it might be lower as a percentage.
    So I guess I just want to--if we are truly concerned about 
this, it seems, since we have lifted the top lines, that 
science and technology needs to have a higher priority at the 
Department than it is getting.
    Ms. Miller. I would say the fact that we have an Under 
Secretary for Research and Engineering who is 3 weeks and 1 day 
in the job, as we build the next budget, you will certainly see 
his influence.
    Mr. Larsen. I will make a note of that.
    Admiral Hahn, can you talk about the impetus for the 
establishment of the Robotarium at Georgia Tech?
    Admiral Hahn. You have that right, the Robotarium.
    Mr. Larsen. Okay.
    Admiral Hahn. So, clearly, if we can provide an 
opportunity, a sandbox, if you will, where we can get vehicles 
in a setting where they can be operated safely by a number of--
a number of folks remotely who may be coming from different 
spots in the United States, either locally or all the way 
across CONUS [contiguous United States], to be able to iterate 
our way through the use of robotics in a variety of scenarios 
across a number of domains, we are going to learn faster. So 
the Robotarium investment created that ecosystem, if you will.
    Mr. Larsen. That is at Georgia Tech, and that is--so is it 
just ONR [Office of Naval Research] money, or is it university 
money?
    Admiral Hahn. Now, there is some National Science 
Foundation money there as well. Other contributions are 
invested in there, and it is probably not the only place we 
should be doing that, frankly, because this is an area where we 
get the smart people really helping us iterate our way through 
how are we going to work through this manned, unmanned teaming? 
How do we get vehicles working together? So any opportunity to 
make that a more prevalent sort of a sandbox approach in other 
places is certainly welcome.
    Mr. Larsen. Yeah, it is something that has interested me, 
so I'm glad to hear you are interested in maybe replicating the 
concept or growing the concept, and it is worth exploring.
    Dr. Walker, as far as DARPA's--not your specific plans, but 
are you still--do you still see yourselves as the 10- to 30-
year look part of our research team in the Department of 
Defense?
    Dr. Walker. Yes, we do.
    Mr. Larsen. Longer term.
    Dr. Walker. Yes, we do.
    Mr. Larsen. And do you feel that you can take enough risk 
in order to make mistakes in order to be successful on a long-
term look, or do you feel pulled back at all?
    Dr. Walker. No, I do feel like we have a risk-tolerant 
culture, we don't set out to fail, but we do fail along the 
way. And we know we are having impact when we do because we are 
reaching.
    Mr. Larsen. Uh-huh. Yeah. And I think that is enough for 
me. That's great. Appreciate it. Thank you.
    Ms. Stefanik. Mr. Lamborn.
    Mr. Lamborn. Thank you. Thank you all for what you are 
doing.
    Ms. Miller, I have a question for you first. Last year I 
worked on the provision that would allow the new IP [internet 
protocol] office to address IP data rights on SBIR transitions, 
including serving as a liaison between DOD and SBIR companies 
when IP issues arise.
    Could I please have an update on how we are implementing 
this provision?
    Ms. Miller. Sadly, I will have to take that for the record. 
The SBIR office will become part of the USD(R&E), it currently 
has not been attached to that. It belonged to the small 
business office, and so I don't have that information with me.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Lamborn. Okay. Then please take that for the record. 
And hopefully you can answer this part as well. I am also 
interested in your implementation of NDAA section 1710, which 
started a pilot program to streamline the commercialization of 
SBIR and STTR [Small Business Technology Transfer program] 
products and services, including encouraging a multiple award 
contract for these products and services. Can you give me an 
update on that?
    Ms. Miller. Again, I will have to take that for the record, 
sir. I am not prepared to discuss it.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Lamborn. Okay. I will look forward to that and thank 
you for offering to do that.
    And then, Dr. Walker and Mr. Stanley, I have a question on 
space situational awareness and battle management command and 
control. What is being done to fix these two things, these two 
important issues, and how quickly will we close the gaps?
    Dr. Walker. Well, sir, on battle management command and 
control, we are about to start a new program called Black Jack, 
which is looking at developing a large constellation of LEO 
[low Earth orbit] satellites that will provide the ability to 
command and control, ISR [intelligence, surveillance, and 
reconnaissance], and other missions. We are going to do this by 
leveraging the commercial sector and plugging into what they 
are doing.
    And so this program is starting--it is starting with the 
Air Force. AFRL [Air Force Research Laboratory] is a full 
partner, and the Air Force Space Command is very interested in 
the concept for trying to integrate space and the tactical 
warfight in a much bigger way than we do today.
    Mr. Lamborn. That is good to hear.
    Mr. Stanley. Sir, as you know, space has become a very 
contested territory for us. We have set priorities in our 
investment in building a resilient multilayer space 
architecture. One of the prototyping programs we are doing 
right now is called Global Lightning, which is utilizing 
commercial satellites to do our space situational awareness and 
communication structure. It is a prototyping program right now 
to demonstrate the feasibility. Those are the kinds of efforts 
we have underway to build that resilient architecture we will 
need in the future.
    Mr. Lamborn. That is really great to hear. I am glad that 
you all are working diligently on that and I appreciate it. And 
I will take some answers from you on the record when you are 
able to get back to us, and I appreciate it.
    I yield back the balance of my time.
    Ms. Stefanik. Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to ask specifically about some of the technologies 
that you are concerned about that our adversaries may have and 
how you feel that we are being able to, I guess, rise to the 
challenge of being able to bring us up to speed technological-
wise on some of our systems.
    I know, for instance, that there has been a lot of 
discussion and talk out there that the Chinese and Russians, 
that they are able to get certain systems up and going while we 
are still sort of working on things and still going through the 
technology aspects of that. I didn't know if you had any sort 
of insight on that at all?
    Yes.
    Dr. Walker. Sir, the one technology that keeps coming up in 
my mind that I get concerned about is biology just because of 
the--I mean, there are several reasons, but the fast pace of 
tech development in that field. We at DARPA started a 
biological technologies office about 4 years ago because of 
this very issue. One of our core missions is to prevent 
technological surprise, and so we want to be ahead of the game. 
So we have, just as an example, a program called Safe Genes, 
which is looking at understanding how gene editing actually 
works and then developing capabilities to reverse it as well as 
prevent it from occurring in the wild if we need to because our 
adversaries have done something.
    And so this is a program. It is an unclassified program. It 
is a basic research program at this point. But, again, it is 
DARPA trying to understand the technology so that we are not 
surprised by it.
    Admiral Hahn. If I could just pile onto that real quick, 
sir. It is not any specific technology that causes me concern, 
because every technology that we are interested in, China is 
interested in. They leverage much of our basic research, 
everything that is done out in the open. What bothers me more 
are the lack of structural impediments that they have to move 
those technologies from a university setting or a commercial 
setting into a military application. There are no structural 
impediments. In fact, they have lubricated that system to a 
point where, if there is direction to move it, it goes.
    We don't enjoy that same kind of streamlined system by 
design. I am not saying we need to change our design in that 
manner the way China has, but we certainly do need to think 
through structurally how are we going to do this differently so 
that the great work that is done in sort of the S&T side of the 
business and that we see every single day in our personal 
lives, when it comes time to apply it to naval warfighting or 
the rest of the fight, the joint fight, we have got good 
pathways to get it there. So that is the part that worries me 
is our ability or inability to move at speed.
    Mr. Veasey. When it comes to creativity, how are they doing 
on that? Because I know in the past that has always, you know, 
been an issue with China is that, yes, they are able to produce 
technologies and they are able to copy technologies. But as far 
as creativity is concerned, sometimes they lack in that area.
    Are you starting to see them catch up in the area of 
creativity?
    Admiral Hahn. The short answer is yes. So the creativity 
factor is there. It is not lost on me that the same places that 
educate many of their scientists and researchers are, in fact, 
the places here in the United States that educate ours. Their 
sophistication about military applications, the CONOPS, or the 
concepts of operations that those would fit into are not that 
much different from ours. So this notion in the National 
Defense Strategy to start to create dilemmas, create surprises 
like Dr. Walker indicated, that is becoming more and more 
important as we consider the use of technology and how we apply 
it and put it in evidence every single day.
    Mr. Veasey. Thank you.
    Dr. Russell, did you have anything?
    Dr. Russell. I guess I will just add on the--where they are 
just copying what we are doing. I think in the area of quantum 
there are some areas where you can see that they--the Chinese, 
in particular, have actually been able to do satellite 
communications. But we have not done that in this country, 
which is a step beyond where we are at today. So it is not 
purely that some of our near-peer adversaries are just 
mimicking or replicating the work that we are doing today, but 
they are beginning to lead in several of these areas. And I 
think it is--part of it is driven by what Admiral Hahn 
mentioned, is there is a lack of barriers to be able to 
transition and move technologies that we face here in this 
country today.
    Mr. Veasey. Thank you.
    I yield back, Madam Chair. Thank you.
    Ms. Stefanik. Mr. Knight.
    Mr. Knight. Thank you, Madam Chairman. Thank you for 
allowing me to ask a couple questions. I am not on this 
committee. But any time Dr. Walker is in the room, I want to 
come in and chat about hypersonics.
    So my first questions, Mr. Larsen put a couple words out 
there that I think we should all be very aware of, and that is 
risk tolerance. I think that what we have done over the last 
maybe 30 years has gone into a society that we don't want to 
take risk. Unless it is perfectly ready to go, we don't do it.
    So my question is about some of these more advanced 
projects that we are working on, like hypersonics, which we 
have been doing for 60-plus years, but we are now calling them 
advanced, and X-Plane programs that we have kind of let go 
beyond the last couple decades, and now we are trying to revamp 
them. And I know NASA [National Aeronautics and Space 
Administration] has got their New Horizons projects.
    But let me ask the panel: Where you do stand on X-Planes? 
Where do you stand on kind of prototyping and getting something 
from a prototype to an action, to a weapon or an airplane or 
something very quick and that might take some risk also?
    Ms. Miller. So I will start and say in the 3 weeks 1 day 
that my boss has been on the job, he has certainly made it 
clear that he embraces the authorities that are given to him to 
do prototyping and experimentation and to do it with a purpose. 
When he was in his confirmation hearing, he talked about the 
major prototyping efforts that used to happen in the past and 
how we learned so much from those and how they did, in fact, 
give us capability that we could operationalize very quickly.
    I anticipate that we will see more of that as we all 
embrace the use of prototyping to help speed capability to the 
warfighter to make sure we get it right.
    Mr. Stanley. Sir, as you well know, the Air Force was built 
on prototyping. And we are getting back to our roots right now. 
As you mentioned, the two hypersonic prototyping programs as a 
follow-on to our partnership at DARPA right now. In addition to 
those, we have a low-cost attritable aircraft program that is a 
prototype out there.
    We had the Spectral Halo program, Global Lightning program. 
And what has made us be able to do this in the past couple 
years is, first, the section 804 language that increased the 
prototyping mind-set. And then, secondly, we have got a BA4 
line specifically set aside for Air Force prototyping that we 
have really leveraged. And based on our new warfighting 
construct, we have tried to allow that line to be our 
exploration line to see the art of the possible.
    Mr. Knight. Let me follow that up real quick.
    Do we screw it up here in Congress? Because we get projects 
out there like the Airborne Laser or some project like that 
that shows great promise and shows great action, and then 
funding is cut on a program that was about $12 million, or 
something happens that we don't take that to the next step and 
say this is something that we can absolutely use in the future.
    I just worry about, every time we stop a project, that data 
stops right there. And then when we pick it up a decade later, 
we have to pick up data that is already a decade old. And other 
countries can pick up that data, whether it be hypersonics or 
lasers, or whatever we are talking about, use that data or 
steal that data, which many countries are good at that. And 
then they are three steps ahead because they have used our 
three steps of R&D to get them to maybe operation.
    So, you know, these are blanket statements, but I think 
everyone understands where I am trying to go with this. 
Congress needs to be good at saying, ``Go do this. We are going 
to fund it. Make sure it works, and keep going.'' Because 
whatever it is, I could pick 20 projects out of my head right 
now that have gone to a data collecting position and never to 
the next step.
    So I will leave you with my last 22 seconds.
    Hypersonics. Are we moving fast, Dr. Walker.
    Dr. Walker. We are. We are about to, I should say. The new 
budget has given us a lot more money in the Air Force to 
basically take what we have been doing and what we are going to 
fly next year and prototype it into operations.
    So I am excited by the new budget and the ability to do 
that. The services are looking at hypersonics and looking at 
incorporating that into a new construct for fighting wars in 
the Pacific and elsewhere. And I think we will be moving out, 
especially, as Mary said, under the new USD (R&E), who is an 
aerospace engineer and has stated publicly that hypersonics is 
his number one priority.
    Mr. Knight. Thank you, Madam Chair. Thank you.
    Ms. Stefanik. Thanks.
    You'll have to take the rest for the record.
    We have time for the second round of questions. Votes have 
been delayed a bit, and I know members have additional 
questions.
    My question, Mr. Stanley, you mentioned additive 
manufacturing in your opening statement, and that is a 
technology that is of particular interest in my district. And 
it is an increasingly important transformative capability for 
the Department, especially as we are able to use critical 
materials titanium and other metals.
    So first I want to ask Ms. Miller what is the Department's 
approach to additive manufacturing? What is being done to 
support the adoption of these capabilities?
    Ms. Miller. Well, we have a national manufacturing 
institute that was focused on additive manufacturing America 
makes, and that was started in--I think it was in 2012. You 
know, the national manufacturing institutes were set up for 5 
years of government funding, and then they were meant to be 
self-sustaining.
    In that particular effort, Mr. Stanley might be able to 
follow on, because the Air Force did pick up and add resources 
to them, because we are finding great benefit of that 
particular manufacturing institute. Additive manufacturing, as 
all the services will tell you, has been something that is part 
of our discovery of how it can benefit across the many 
disciplines that we have.
    Ms. Stefanik. And before I turn to Mr. Stanley, who I am 
going to follow up with, are there ways for the Department to 
validate or ensure that the manufacturing processes are uniform 
to guarantee trust, inflate safety, or other critical parts?
    Ms. Miller. That is an effort that the services are 
deliberately making to understand that if we can 3-D print 
something, but we need to know that every time we print it, it 
is going to be the same and have the right attributes. I know I 
personally was at AFRL last year and saw them working on how 
they do it that. It is an area of research. And, yes, we need 
to do it.
    Ms. Stefanik. Mr. Stanley.
    Mr. Stanley. Ma'am, additive manufacturing is a key 
fundamental building block for our systems going forward, as 
you have quite eloquently talked about. In addition, we are 
putting a lot of resources behind that certification process of 
these additive manufacturing designs and products that we are 
spitting out.
    So that is an important piece. We have got to come to 
agreement amongst the services, amongst the other agencies, the 
FAA [Federal Aviation Administration] included, on how we 
certify additive manufacturing parts for airworthiness and 
flight safety.
    Ms. Stefanik. Do the other services want to add here?
    Admiral Hahn. Certainly do.
    So inside the Navy, we are taking an all-the-above kind of 
strategy to work additive and advanced manufacturing mechanisms 
where they make sense. So if we can push a 3-D printer out to 
the edge and have a sailor or Marine print a part that is 
appropriate to relieve a logistic supply problem, that is 
great. But the hardest thing is going to be to get to 
airworthiness or, near and dear to my heart, something that I 
would put on a submarine and take that ship down to test depth 
and depend on that.
    And at the science level of this, we need to understand 
what is happening at the microstructure when we now take that 
same material that we know exactly what happens, or pretty well 
what happens, when we forge it or we cast it. But now we create 
a little molten pool at the micro level and create a part for 
it. That is much, much different. So that is significant 
research that needs to be done. We are doing it together, which 
is the good news. And we are doing it nationally, which is the 
better news. And once we get that, then we unlock the design 
space, because once you capture that digitally, then you can 
understand how now I can remove weight from that part, I can 
get the exact attributes I am after, and I can manufacture it 
differently, cheaper, with more fidelity, more repeatability 
using these advanced manufacturing techniques. So it will 
unlock quite a bit, and we need to get an advantage there and 
then keep it.
    Ms. Stefanik. Dr. Russell.
    Dr. Russell. Yeah, I agree with most of my colleagues--with 
all my colleagues. One thing I might add to it, it gives us the 
ability to be more adaptive to the threat. So as an example, we 
have a program currently in the Army. Instead of making small 
UASes [unmanned aerial systems], instead of producing 700 
UASes, what you might do is produce different capabilities and 
then have the ability in theater to produce a smaller UAS 
capability that would adapt to the threat that you are actually 
seeing. So instead of going to an industry and say, well, we 
need 400 or 700 UASes to support the mission, you actually 
produce them in real time and be an adaptable to the threats 
that you are seeing.
    Ms. Stefanik. Ms. Miller, one more follow-up.
    You mentioned the national manufacturing institute. How are 
you leveraging the private sector research and the innovation 
that is happening in additive manufacturing?
    Ms. Miller. Well, through that particular institute, we do 
have--you know, it was kind of--the national manufacturing 
institutes are almost a pilot for that private-Federal 
partnership, and it has been very effective. We have, I think, 
over 45 industries that are part of that consortium in working 
with the government and trying to create that national 
capability. So I think we are leveraging them fairly 
effectively in that particular space, and actually the rest of 
the institutes as well.
    Ms. Stefanik. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    Again, thanks to our witnesses.
    Admiral Hahn, let me go back to something you said, I found 
it interesting, in that you talk about China's agility, that 
they don't have the same kind of limitations that we have 
because of the structure that exists. Not to replicate what 
they have, but how can we make our system more agile? 
Especially when you are talking about technology, it seems like 
those types of limitations really, on us now, very--have us 
proceeding with our hands tied behind our back if we can't move 
with the kind of agility that needs to be when it comes to 
technological advance.
    Admiral Hahn. So this is the 64 million or billion or 
trillion dollar question, I think. And it goes back to, I 
think, a little bit of Mr. Knight's thread as he kind of walked 
through the question, are we messing this up. And not that the 
Congress is messing it up, that we are together, I think, 
messing this up, in that we don't recognize the continuum of 
activity that must occur to pull one of these things through. 
We are going to fail sometimes, which needs to be okay. Because 
I failed doesn't mean that the funding is going to go away. 
Because I failed doesn't mean that we are going to stop the 
project. We got to continue on.
    We are going to move through different levels of expertise 
and different phases of this as we move ahead. And many times 
when that happens, at least inside of the services, we change 
the people who are involved. And the expertise goes from, oh, 
that is the science part. Now it is into the engineering part. 
Well, not really. It is all a blend, right? And more and more 
as we find these threads that we need to pull, we need to 
maintain our focus on it.
    So I am particularly encouraged with some of the things 
that I see happening in the Navy. The CNO [Chief of Naval 
Operations] and the Secretary [of the Navy] as well as the new 
ASN(RDA) [Assistant Secretary of the Navy for Research, 
Development, and Acquisition], Mr. Geurts, have put a laser 
focus on some of these things that are important to bringing 
some lethality and some of this technology into the fleet and 
force. One of those areas is directed energy with our Navy 
family of lasers.
    And in and amongst that, we are taking more than one 
approach. We are not putting all our chips into that technical 
approach. We have three or four involved with that. We 
recognize that we are going to learn as we go. We have broken 
the problem into pieces so that a state of the practice fiber 
laser is being used to integrate onto a DDG-51, a destroyer 
combat system. That is a hard problem in and of itself. If I 
combine a state-of-the-art laser, then I am doubling or 
tripling my problem.
    So we are thinking through ways that we can divide the 
problem, but keep the focus and set up a series of, if you 
will, frog races, where these things are going to bump along at 
the pace that technology moves. Some may be better than others. 
But at the end point, as soon as it is ready, we want to have 
figured out the way to get it onto the ship, the plane, or the 
submarine, or in the hands of that Marine and not have the 
funding fall apart as we go through.
    So I applaud the Air Force for their dedication to this BA4 
activity that they protect as sacred to prototype and figure 
out a way to get that stuff fielded.
    So that is the right answer. And, you know, we are trying 
to replicate that. We require your advocacy and help to keep 
those things going, because a lot of times it is the certainty 
and the continuum of funding across this set of activities that 
becomes the impediment.
    Thank you.
    Mr. Langevin. Thanks for the answer, Admiral. And I think 
we have to have this philosophy that it is okay to fail as long 
as there is good lines of communication between the R&D 
community and the Congress, we can take these leaps together. 
And as long as we are not failing, then the--I like the Elon 
Musk philosophy with his people that if they are not failing, 
they are not trying hard enough. And we need to be okay with 
failing sometimes as long as we are doing it the right way and 
there is good communication.
    Let me just--it is kind of a related point. Ms. Miller, as 
I stated in my opening statement, I believe the reorganization 
provides an opportunity to rethink how DOD delivers most 
advanced capabilities to the warfighter in the near, mid, and 
long term. So related to all of this, for instance, it provides 
an opportunity for the Department to bridge the ``valley of 
death,'' so--that so many technologies and companies fall 
victim to, as well as provide an opportunity for greater 
leveraging of the DOD S&T ecosystem like labs.
    Can you please describe how R&E will work with the 
acquisition and sustainment side of the Department and how 
DOD's S&T ecosystem is being leveraged to its greatest 
potential?
    Ms. Miller. Yes, sir.
    With regards to the R&E and the A&S partnership, and it 
does remain a partnership by necessity, the USD(R&E) was given 
the authority to take that risk, to move fast, to fail and 
learn and try and use prototyping and experimentation to better 
inform, one, what the technology risk is and to drive it down 
where we can, and to inform requirements.
    Because as you well know, acquisition is based on the 
requirements and getting those requirements right. And one of 
the things that all of the services I think would agree with me 
when I say, sometimes we get requirements that were given to 
acquisition that aren't really what the warfighter wants. And 
the experimentation venues that the Under Secretary was given, 
the ability to do prototyping experimentation or helping to 
refine that before we get launched.
    So we will do those risky things and try to drive down risk 
and inform the requirements before we launch formalized 
programs of record. And then we go into those programs of 
record, and we have a better chance of success. The partnership 
is there. We need the acquisition guides to be the sounding 
board for when we are really crazy and we can't get the program 
there. And we need to be the guys always telling acquisition 
you have got to take it to get that next step beyond where you 
are. Don't just settle for an incremental change. And I think 
you are going to see that.
    Mr. Langevin. Good. Very good. Thank you.
    I yield back.
    Ms. Stefanik. Mr. Larsen, do you have additional questions?
    Mr. Larsen. Thank you.
    First, Ms. Miller, I apologize. I did not see that you are 
a Washington Husky. But I am glad you are, so--yeah. And on 
that point, my other son--my one son is there. The other son is 
actually in the engineering school at a different school. But 
it brings up the point about the workforce and the STEM 
[science, technology, engineering, mathematics] workforce the 
pipeline create. And some universities, including ``the W'' 
[University of Washington] now have changed. They haven't 
changed the requirements so much to get into engineering, but a 
lot of the larger state schools--you got to apply to the 
school, get in the school, and then, while you are there, get 
the grades to apply into the engineering school or the business 
school or so on.
    And some of the larger schools are changing that because, 
for whatever reason, it is providing them more opportunity for 
domestic students to get into these schools.
    And so this really gets into the question about the 
availability of the pipeline, the availability of the 
workforce, if it is necessary to have U.S. citizens or not, and 
what that means for you in terms of recruiting for the 
workforce that you need to continue to do the work that you are 
doing. So it is all kind of related, but I just wanted to--it 
is really about that availability and what things can you do to 
open up that pipeline. And have you thought through that?
    Ms. Miller. We have been thinking through it. It is a 
concern for all of us because a STEM-literate citizenry is not 
only important to the Department of Defense, it is important to 
the Nation writ large. And so, actually, the services and OSD 
[Office of the Secretary of Defense] and the defense industrial 
base have been doing what they can to incentivize this STEM 
pipeline, as you put it. All of the services reach down into 
the early grades on up to get that resonance of wanting to be 
in STEM.
    What we have been trying to do is champion additional 
incentives to keep U.S. citizens working into the higher 
academia, like Ph.D. programs, so that they will work in areas 
of national defense. This is an area where, in many 
disciplines, we get foreign nationals that will be doing that 
work and doing that Ph.D. thesis. And the U.S. citizens are 
going out and getting jobs. And it does not help us when we see 
reports where, gee, you can get out with a bachelor's and start 
to work right away, and you can make more money than somebody 
who can get a Ph.D. and took 7 years to get there. That is not 
helpful to us.
    However, it is up to us to one, we give them good problems 
to solve in the Department of Defense, because we have very 
challenging problems. But we need to help them make sure that 
that is the choice that they want to make. So we are offering 
scholarships to help incentivize them to go into discipline 
areas that will help us. And we are looking at how we can make 
it more enticing to keep them in that.
    Mr. Larsen. Yeah. Are you exploring at all the ability--you 
have a flexibility to bring people in and out. So on the 
National Guard side, you got cyber warriors, you know, folks 
who can give you a weekend a month and 2 weeks a year, and you 
can bring them in, you can bring them out when you need them, 
as opposed to making them commit to wear the uniform for 3 
years.
    Ms. Miller. Yes. We are absolutely looking at the 
flexibilities of being able to bring people from academia, 
industry into the government and send them back out again.
    Sadly, if you are a government employee, when you go out, 
you sometimes have limitations. And there have been--some of 
the language that had been provided is being interpreted in a 
way that folks don't have the flexibility to come in and out 
and not be held--I guess prevented from working in that 
discipline. And that is something we are working on. How do we 
make sure that we do not disadvantage people that want to come 
work in the Department.
    But the way the world is right now, people want to change 
jobs frequently. They want the experience. And we want to 
maximize our ability to do that.
    Mr. Larsen. Yeah. That is fine.
    Thank you. I yield back. Go, Dogs.
    Ms. Stefanik. That is it for our questions. And in closing, 
I want to thank the witnesses. I want to thank the members, 
both the subcommittee members and the non-subcommittee members, 
for their excellent questions.
    And I want to reiterate the quote that I included in my 
opening statement from Jim Mattis, who recently testified. 
Quote, ``Our competitive edge has eroded in every domain of 
warfare: air, land, sea, space, and cyber.''
    From my perspective, it is our responsibility as 
policymakers and as a Congress to ensure that we don't lose a 
competitive edge in any domain or in any technology, 
particularly as we look at what 21st century warfare looks like 
in the next 10, 20, 30 years.
    And I also wanted to reiterate Dr. Walker's comment where 
he stated one of the founding missions of DARPA was to ensure 
that the U.S. is always the initiator of strategic surprise. 
That is something that we need to continue to focus on as 
policymakers when it comes to our S&T portfolio.
    So thank you very much for the testimony today.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 14, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2018

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
  




      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 14, 2018

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LAMBORN

    Ms. Miller. Although the legislation does require USD (A&S) to 
establish ``an appropriate leadership structure and office within which 
a cadre of Intellectual Property Experts shall be managed,'' the 
Department is still in the planning process, and has not yet formed 
such an entity. The establishment of this office has been deferred 
while the Department's leadership addresses the creation of the Under 
Secretaries for Research & Engineering and Acquisition and Sustainment. 
  [See page 18.]
    Ms. Miller. The pilot authority of Sec. 1710 of the FY18 NDAA will 
allow organizations across the Department to easily leverage SBIR and 
STTR developed technologies, supplies, or services. In implementing the 
pilot, we first coordinated with Services and Agencies to identify 
where multiple award agreements were already in use to support SBIR and 
STTR technology development and transition. Our guidance for 
implementation of a DOD-wide pilot was modelled on these programs to 
allow incorporation of lessons from the field. In early June, 
implementation instructions were distributed throughout the Department 
to encourage additional use of multiple award contracts to covered 
small business concerns for the purchase of technologies, supplies, or 
services developed in the SBIR or STTR Program. In addition to the Sec. 
1710 pilot program, the SBIR and STTR programs have multiple tools 
available to support technology transition. These include Phase III of 
the SBIR and STTR programs where no SBIR funds are provided by 
government or prime contractors to complete critical development or 
testing of these technologies in preparation for transition. The Rapid 
Innovation Fund (RIF) program provides another avenue to enable 
transition of technologies from the SBIR and STTR programs to meet 
warfighter needs. Additionally, the Commercialization Readiness Program 
(CRP) is used the provided dedicated support to improve transition 
outcomes for many technologies. Finally, the department was also 
successful in the use of the Phase Flexibility pilot authority (also 
known as Direct to Phase II), which unfortunately expired at the end of 
FY17. Phase flexibility provided the ability to shorten the development 
cycle for critical technology solutions. In today's environment, rapid 
delivery of technical capabilities to the warfighter is critical. This 
authority has shortened the development time for technologies to 
transition to Phase III funding. This encourages companies with more 
mature technologies to participate in the program, further enhancing 
the technical solutions available to DOD. This provision should be 
reauthorized and made a permanent part of the program. The third phase 
of the SBIR and STTR programs, referred to as Phase III or the 
``commercialization phase'', as well as the Rapid Innovation Fund (RIF) 
program provide resources that are critical for the successful 
transition of new technologies into the Department. While not every 
research project can (or should) transition, for those technologies 
that are ready and provide needed capabilities, the additional funding 
available through Phase III and RIF allows further maturation of 
technologies as well as needed testing and evaluation.   [See page 18.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 14, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. LARSEN

    Mr. Larsen. Please provide what percentage of the topline request 
S&T has compromised (6.1-6.3) for FY19 and the previous four fiscal 
years.
    Ms. Miller. Fiscal Year 2019: 2.0 percent Fiscal Year 2018: 2.1 
percent Fiscal Year 2017: 2.0 percent Fiscal Year 2016: 2.1 percent 
Fiscal Year 2015: 2.1 percent
    Mr. Larsen. During the hearing, we spoke of the need to expand on 
the successful Robotarium concept (open access, collaboration with NSF, 
partnership with academia, swarms of autonomous vehicles).
    What would the total cost to the ONR be (assuming a 50/50 cost 
share with NSF) be to establish a Multi-Domain Robotarium incorporating 
UUVs, USVs, and UASs, and what would the value be of such an 
initiative?
    Admiral Hahn. The Robotarium concept presents an opportunity for 
researchers to conduct experiments with distributed and interconnected 
autonomous systems, which are expected to play an increasingly 
important role in future defense operations. These types of systems may 
enable new capabilities across a wide range of defense applications 
including tactical sensing and prediction of ocean and littoral 
environments, surveillance, reconnaissance/search, mine 
countermeasures, force protection, logistics, and humanitarian and 
expeditionary operations. For the defense research enterprise, the 
Robotarium addresses an important challenge of scaling up innovation 
and reducing the cost of entry in order to accelerate advances in 
technology and fundamental understanding of scalable, collaborative 
autonomous systems. Rather than having individual researchers or 
institutions invest time and resources on hardware development and 
maintenance, the Robotarium provides a remotely accessible multi-
robotic testbed. This enables researchers to upload new software and 
automatically conduct experiments to test and compare methods, gain new 
knowledge, and advance robotics technology. The total potential cost 
depends on the scale and capability of the completed work and 
experimentation space. A range for the endeavor would be $2-10 million 
depending on the size, scope and complexity. One of the big challenges 
that will drive the costs is the extent of investment to simulate the 
effects of genuine undersea mission, sensor, and communications 
payloads such as sonar and acoustic communications. If more realistic 
sized vehicles that are used by the military and realistic conditions 
are needed, the cost could easily increase an order of magnitude. 
Additionally, operating costs are not included in this estimate.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. The Administration's FY 19 budget proposes to reduce 
funding for the Defense Science and Technology (S&T) program by $350 
million or approximately 2.5 percent from FY 2017 enacted. Requested 
funding is also below what is proposed in both the House and Senate FY 
18 Defense Appropriations bills. Given that a priority of the National 
Defense Strategy is to maintain the Department technological advantage, 
it is puzzling why the budget requests fewer resources for the Defense 
S&T program. As is stated in FY 19 budget documents, the Defense S&T 
program ``invests and develops capabilities that advance the technical 
superiority of the U.S. military to counter new and emerging threats.'' 
Please explain the rational for requesting fewer resources for Defense 
S&T given that the Department received significant relief from the 
budget caps.
    Ms. Miller. The Department's President's Budget (PB) request for 
S&T (includes Base, OCO, and Amendments) has grown as compared to the 
previous year's PB request. The PB request for FY 2017 was $12.7B, FY 
2018 was $13.2B, and FY 2019 was $13.7B. The growth between FY 2017 and 
FY 2018 is 4.6%, and between FY 2018 and FY 2019 is 3.2%. The S&T 
request for FY 2017-FY 2019 has been constant at 2% of the DOD PB 
Requested Topline (includes Base, OCO, and Amendments). The DOD PB 
Request represents the best balance of requirements against resources. 
It should be noted that efforts in other RDT&E lines (i.e., 6.4-6.7) 
also contribute to the ability to maintain the Department's 
technological advantage.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Regarding DIUx, how does DOD plan to improve outreach 
to innovative companies outside of the Silicon Valley, Boston, and 
Austin?
    Ms. Miller. Since June 2016, more than 650 companies from 43 states 
have submitted proposals in response to DIUx's solicitations. Outreach 
is key, and DIUx has a multi-prong strategy for nationwide outreach to 
key groups in order to feature streamlined business processes and the 
DOD challenges. Targeted efforts for engagement include: presentations/
panel participation at key national technology/innovation events; 
placement and interviews in targeted trade and mainstream publications; 
outreach to incubators, accelerators, and venture capitalists across 
the country; coordination and visits to State economic development 
entities including local chambers of commerce, civic associations, and 
SBIR/STTR entities on local bases; connection to the citizen soldiers, 
sailors, airmen, and Marines who serve as technology industry leaders 
and entrepreneurs when they're not on duty as reservists/National 
Guard.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. HICE
    Mr. Hice. Dr. Walker, in looking at the DOD's research and 
development plan, do you believe that our universities could be 
involved in long-term research and building up the bench strength of 
scientists and engineers for American hypersonics technical know-how? 
How do you engage with the university community to address the long-
term research and skilled workforce needs in hypersonics?
    Dr. Walker. Universities cannot only be involved in strengthening 
our nation's hypersonics workforce, they provide a critical role in 
establishing and maintaining a robust pipeline of qualified and 
energized young scientists and engineers to support one of DOD's top 
modernization priorities. There are multiple opportunities to engage 
and align university resources with DOD needs. The first is through 
Multi-disciplinary University Research Initiatives (MURI), executed by 
the DOD's service research offices--such the Air Force Office of 
Scientific Research (AFOSR), Office of Naval Research (ONR), and Army 
Research Office (ARO). MURIs can be focused on hypersonic technology 
development areas such as aerodynamics and aeroheating; structures and 
materials; airbreathing and rocket propulsion; guidance, navigation, 
and control; and rapid/robust design, integration, optimization, and 
uncertainty. Secondly, DARPA engages universities through its basic 
research programs through its Defense Sciences Office (DSO), that 
address technology development areas such as basic material science for 
hypersonic systems. Finally, DARPA and the services can work together 
in sponsoring hypersonic flight research experiments that engage the 
university community and offer a unique opportunity to rapidly build 
experience in our young workforce. This is exemplified by the DARPA/
AFOSR hypersonic Boundary Layer Transition (BoLT) project which is 
sponsoring two university-led teams to conduct ground and flight 
experiments to advance our fundamental understanding of boundary layer 
transition physics for a new class of hypersonic geometry.

                                  <all>
</pre></body></html>
